Supreme Court, U.S.
FILED

APR 2 8 2021

50- 15 ?5

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
Donnahue George -Petitioner
vs.
Westway Towing
William Snyder
Fort Lauderdale Code Enforcement
John Doe
ON PETITION FOR A WRIT OF CERTIORARI TO
United States Court Of Appeals 11th Circuit

PETITION FOR WRIT OF CERTIORARI
Donnahue George
1012 NW 2nd Street
Fort Lauderdale FI 33311
(347)216-5257
Email: DonnahueGeorge@gmail.com

5" s
/\

RECEIVED

LJ

MAY - 5 2021
gf,eg|M°FFCTg5RCTLUnSK
1

QUESTIONS PRESENTED
1. Are Pro se litigants entitled to the same interpretation and protections of the law
when the opposing party is a government agency as litigants represented by legal
counsel.
2. Whether the District Court erred by dismissing Plaintiff- Appellant Donnahue
George case for failure to state a claim when defendants were properly served, and
Plaintiff- Appellant Donnahue George was very specific in his Amended complaint
about Defendants unconstitutional actions. The Defendants entered Plaintiff
Donnahue George premises illegally under the color of law and stole his personal
property, thereby denying him his constitutional rights to do process and violating
his constitutional rights against unjust seizure of his property.
3. Whether the District Court erred by striking the Defendants separate motions to
dismiss and ordering that they file a joint motion to dismiss, unless they had
conflicting interests, and issuing orders before plaintiff has time to respond, which
gives the impression that the District court is acting like co-counsel for the defense
and becoming the architect of the defendants defense strategy and denying Plaintiff
Donnahue George Constitutional rights to a fair and impartial trial.

4. Did the Court of Appeals err by affirming the the lower courts decision to set aside
the Clerks entry of default when the defendants were properly served . The
2

defaulting party did not have a meritorious defense, The Default was willful and
culpable and setting it aside prejudiced the plaintiff-Appellant. The Defendants
alleged they were not served but presented no evidence to support that allegation
but Plaintiff_Appellant provided proof of Service.

3

LIST OF PARTIES
All the parties appear in the caption of the case on the cover page.

RELATED CASES

Donnahue George v Westway Towing 19-CV-61827 U.S. District Court Southern
District of Florida Judgment April 27, 2020
Donnahue George v Westway Towing 20-11648 JJ U.S. Court Of Appeals 11th
Circuit Judgment Feb 12,2021

4

TABLE OF CONTENTS

TABLE OF AUTHORITIES
OPINIONS BELOW

6
7

JURISDICTION

8

CONSTITUTIONAL AND STATUATORY PROVISIONS INVOLVED....9
STATEMENT OF THE CASE

17

REASONS FOR GRANTING THE WRIT

15

CONCLUSION

19

PROOF OF SERVICE

20

INDEX TO APPENDICES
APPENDIX A Decision of US Court of Appeals 11th Circuit
APPENDIX B

Decision US District Court Southern District Florida

APPENDIX C

Motion in Opposition

APPENDIX D

Appellant Brief Court of Appeals

TABLE OF AUTHORITIES
Cases
E.g., Haines v. Kerner, 404 U.S. 519, 520-21 (1972) (per curiam).8,10
Prou v. United States, 199 F. 3d 37, 42 (1st Cir 1999)
5

9,10

Comer v. Nicholoson, No 05-1462 U.S. App Vets (2007)

9

Federal Statutes
U.S. Constitution 4th 5th 14th Amendment

12

Florida Statutes
Fla. Stat. (2017) 768.28(6)(a)

13

Fla. Stat. 715.07 (2) (a)(3)....

13, 14

Fla. Stat. 713.78....................

13

6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the Judgment
below.
OPINIONS BELOW

For the cases from the federal courts:
The opinion of the United Court of Appeals appears at Appendix 1 to the petition
and is
Unpublished.
The opinion of the United States District Court appears at Appendix 2 to this
petition and is
Unpublished
There are no State Court cases

7

JURISDICTION

For cases from the federal courts:
The date from which the United States Court of Appeals decided my case was
February 12, 2021
The Jurisdiction of this Court is invoked under U.S.C. 1254(1).

There are no State Court cases.

8

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The federal courts historically have been solicitous of the rights of pro se litigants.
E.g., Haines v. Kerner, 404 U.S. 519, 520-21 (1972) (per curiam); Prou v. United
States, 199 F.3d 37, 42 (1st Cir. 1999). The Court of Appeals decision on this case
was a manifest error because the courts affirmed the lower courts decision even
though the defendants never presented any evidence to the courts to support their
claims.
The Court of Appeals argues in their decision that the District Court decision was
correct even though the facts of the case and the law does not support that decision.
See Comer v. Nicholoson, No. 05-1462, 2007 U.S. App. Vet. Claims LEXIS 1083
(Vet. App. July 6, 2007) (“2007 Veterans Court Decision”). Because we conclude
that the court misinterpreted Roberson v. Principi, 251 F.3d 1378 (Fed. Cir.
2001), when it held that the duty to sympathetically andfully construe a pro se
veteran’s filings did not apply to an appeal submitted to the Board of Veterans ’
Appeals following a rating determination, we reverse and remand. I am a Pro se
litigant and a disabled veteran.
Plaintiff Donnahue George Complaint met the requirements under Rule 12(b)(6) to
the defeat the motion to dismiss because there were sufficient facts in the
complaint to state a claim to relief that is plausible on its face. The facts in the case

9

were very very specific and the only reason the courts supported that erroneous
decision was because I was a pro- se litigant. If an admitted attorney submitted the
exact same complaint with the exact same facts, the courts decision would have
been different.

10

STATEMENT OF THE CASE

Plaintiff Donnahue George states that on March 18, 2019 at approximately
0930. Defendant William Snyder a city employee without any legal
authority to enter private property and with the assistance of Westway
towing who was a state actor stole my perfectly running covered limo out of
my paved driveway. Plaintiff Donnahue George has presented proof that
Defendant William Snyder then submitted an erroneous report to Fort
Lauderdale Code enforcement stating that the vehicle was derelict and that
he did not know who the owner was Yet Defendant and state actor Westway
Towing submitted a title search that they ran on plaintiffs car that same day
and time that lists the plaintiff as the owner and the car was registered at the
address from where it was towed. Plaintiff Donnahue George does not allege
that he filed a police report. Plaintiff Donnahue George states that he went to
the Fort Lauderdale Police department to file a report and that police officer
Rivera Shield # 1625 informed Plaintiff Donnahue George that his car was
found abandoned on NE 5th street and NE 2nd ave. Plaintiff Donnahue
George has no idea who reported his vehicle abandoned in the street but
after a discovery period plaintiff is confident that the Fort Lauderdale Police
department has accurate records. Defendant William Snyder and Defendant

li

and state actor Westway entered my property illegally with the intent to
trespass of chattel, violated Plaintiff Donnahue George constitutional rights
arising under the 4th, 5th and 14th amendments plus 42 USC 1983, by
committing grand theft auto, fraud , trespass, trespass of chattel, intentional
infliction of emotional distress and conversion.
As demonstrated below, Plaintiff Donnahue George claims should be
granted in its entirety because:
First, Fort Lauderdale Code Enforcement is an entity that is capable of being
sued because the process server informed me that the statute required her to
serve the director of Code enforcement, and even if the courts even wanted
to entertain that allegation, the City of Fort Lauderdale is on notice and has
had ample time to provide an answer and defense. Plaintiff Donnahue
George added John Doe to his Complaint because he knew after discovery
there would be more defendants. It is a very simple issue to add City of Fort
Lauderdale as a defendant if that will make the Defendant happy.
Second, to the extent that Plaintiff Donnahue George does state a claim
against defendant William Snyder who was supposed to be acting in his
official capacity as a City of Fort Lauderdale employee, Westway Towing
who was acting as an agent for the state. Plaintiff Donnahue George notified
Fort Lauderdale Police Department, Fort Lauderdale Code enforcement, Fort
12

Lauderdale City hall and Broward county commission on June 24. 2019 (See
exhibit C) in complete compliance of pre-suit requirements 768.28(6) (a),
Fla. Stat. (2017) warranting this court granting all of plaintiff Donnahue
George claims.
Third, Plaintiff Donnahue George claims are veiy specific and the facts are
overwhelming. Defendant William Snyder and state actor Westway Towing
entered my property illegally and with the assistance of state actor Westway
Towing stole my perfectly good running limo that was clean and covered
and legally parked on my paved driveway. While Defendant William Snyder
and state actor WestWay Towing were in the process of stealing my vehicle
in violation of Florida towing statutes 715.07 (2)(a)(3) which is a felony,
and Florida statute 713.78 which is very clear that the only person that can
tow vehicles from private property are the Owner the owners representative
or a law enforcement officer. The statutes are very clear that a code
enforcement officer is not a law enforcement officer and therefore is not
authorized to tow any vehicles from private property. Plaintiff Donnahue
George neighbors saw Defendant William Snyder and immediately called
Plaintiff. I had my neighbor put Defendant William Snyder on the phone and
I explained to him that he did not have my permission to remove my legally
parked covered car from my paved driveway. State actor Westway towing
13

and William Snyder then stole my vehicle. Defendant William Snyder then
submitted an erroneous report with his department which he signed stating
that a vehicle on private property was derelict and that he did not know who
the owner was. He knew it wasn’t derelict he knew who the owner was and
he still removed the vehicle from my private property and lied about it.
Westway towing have provided me with documentation that proves that they
knew who the owner of the vehicle was, they knew it was registered at that
address and they still towed the vehicle in violation of Florida Towing
Statutes. They were in possession of the correct information and Defendant
William Snyder still submitted that report to his department alleging that the
vehicle was derelict and he did not know who the owner was. This is further
evidence that the fraud perpetrated by Defendant William Snyder and
Defendant Westway Towing was deliberate, intentional and willful. Florida
Statute 715.07 (2)(a)(2) states that if you tow a vehicle in the state of Florida
without the owners permission you have to notify the local police
department in 30 minutes. Violation of this statute is a misdemeanor.
Nobody notified Fort Lauderdale police department in 30 minutes in
violation of Florida state statutes, instead someone notified Fort Lauderdale
police department dispatcher that they found my vehicle abandoned in the
street blocks from my house.
14

Fourth, Plaintiff specifically states a cause of action against Defendant
William Snyder, state actor Westway Towing and Fort Lauderdale Code
enforcement. Defendant William Snyder and state actor Westway Towing
had no legal reason to enter my property and steal my vehicle. The City of
Fort Lauderdale as the employer of Defendant William Snyder is responsible
for training him and supervising his actions. Its obvious to a reasonable
person that either they failed in training him properly, supervising him
properly or both. By entering my property to commit a felony by stealing my
vehicle and then fabricating evidence to cover up the felony, Defendant
William Snyder and state actor Westway Towing committed Grand theft
auto, trespass, trespass of chattel, fraud and conversion. Only through a court
ordered discovery period will we be able to determine if this was a one-time
incident, or a pattern of behavior that has been going on unsupervised and
unchecked for years.
Fifth, Plaintiff Donnahue George spoke to Defendant William Snyder while
he was in the process of towing my car and explained to defendant William
Snyder that he did not have my authority to remove my perfectly running
covered vehicle from my paved driveway. Defendant William Snyder hung
up on plaintiff Donnahue George and proceeded to steal the plaintiffs
vehicle. The plaintiff Donnahue George felt weak and helpless at that point
15

because there was nothing he could do to stop Defendant William Snyder
from violating his Constitutional rights. The emotional helplessness that
Donnahue George felt at that point cannot be overstated, and then to return
home and see that his vehicle is missing, and then to add insult to injury to
be informed by Officer Rivera shield# 1625 that his vehicle was found
abandoned in the road sent Plaintiff Donnahue George in a sense of panic
and he immediately went to Fort Lauderdale code enforcement to find out
what was going on. Defendant William Snyder handed Plaintiff Donnahue
George a paper stating that he did not know who the owner of the vehicle
was and that it was derelict. Plaintiff Donnahue George told defendant
William Snyder that he knows who owned it because you spoke to me while
you were towing it and you hung up on me. Defendant William Snyder just
walked away

16

REASONS FOR GRANTING THE PETITION

This honorable Court should grant this petition because it has national and
international importance. I have fought for this country as a United States Maruine
on many foreign soils. One of the tenents that we hold dear and that is respected
around the world is the fairness of our courts. The world looks up to the United
States of America as that ideal city on a hill that most countries aspire to be. The
Constitution that me and my brothers and sisters fought for as a United State Marines
says that all Americans are equal under the law regardless of race gender, political
association or socio-economic status.
This order by the Court of Appeals order tells the world the exact opposite. The
Court of Appeals order tells the world that if you are not represented by legal counsel
then you are not equal under the law. In every other Court in the United states if I
was represented by counsel and the exact same facts were written in the complaint
the courts would have ruled differently.
The Court of Appeals order is totally contrary to the judicial system that our great
nation was built on. Had I been represented by legal counsel would court of Appeals
and the District Court would not have held that there was not sufficient facts in the
case. The Amended Compliant had sufficient information to state a claim for which
relief could be granted. The only reason the Courts came to their decision is because

17

I was a pro-se litigant. The facts in the complaint were very clear as to what
transpired and how my constitutional rights were violated.
Just like the American people needs to have confidence in a transparent voting
system the American people need to have confidence in a transparent Judicial
System.. A fair and just Judicial system. Americans need to feel that when they enter
a courtroom they will be treated as equals and Justice will be administered fairly
based on the facts and the law not based on relationships or who the opposing party
or who the opposing counsel is.
I fought for the right to be treated equally under the law as a United States Marine
and the decision made by the Court of Appeals and the District Court says that if I
am not represented by legal counsel I am not equal under the law.

18

CONCLUSION

The Petition for a writ or certiorari should be granted because the there was
sufficient facts in the Amended Complaint that stated a claim upon which relief
may be granted.

Respectfully Submitted

19

